No. 19-307

In The
Supreme Court of the Anited States

STUART A. MCKEEVER,
Petitioner,
v.

WILLIAM P. BARR,
ATTORNEY GENERAL,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for
the Petitioner in the above-referenced case contains 2,996 words, excluding the

parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 10, 2019. q]
Ht

By.
Roman Martinez
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Petitioner Stuart A.
McKeever
